                              Office of the Inspector General

August 14, 2000

James M. Fornataro
Associate Commissioner
 for Acquisition and Grants

Assistant Inspector General
 for Audit

Costs Claimed by American Institutes for Research on Social Security Administration’s
Contract Number 600-97-32018 (A-15-00-20034)

The enclosed final report presents the results of our audit of the costs claimed by the
American Institutes for Research on the Social Security Administration’s Contract
Number (CN) 600-97-32018. The objective of this audit was to determine if costs
claimed by American Institutes for Research for CN 600-97-32018 were allowable,
allocable, and reasonable in accordance with applicable Federal regulations and the
terms of the contract.

Please comment within 60 days from the date of this memorandum on corrective action
taken or planned on the recommendation. If you wish to discuss the final report, please
call me or have your staff contact Frederick C. Nordhoff, Director, Financial
Management and Performance Monitoring Audit Division, at (410) 966-6676.




                                             Steven L. Schaeffer

Attachment
                 OFFICE OF

          THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



         COSTS CLAIMED BY AMERICAN
          INSTITUTES FOR RESEARCH
           ON THE SOCIAL SECURITY
         ADMINISTRATION’S CONTRACT
             NUMBER 600-97-32018

           August 2000                 A-15-00-20034



AUDIT REPORT





This document is a draft report of the Office of the Inspector General
 and is subject to revision; therefore, recipients of this draft should
 not disclose its contents for purposes other than for official review
 and comment under any circumstances. This draft and all copies
  thereof remain the property of, and must be returned on demand
                to, the Office of the Inspector General.
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                      E X E C U T I V E S U M M A R Y


OBJECTIVE

The objective of this audit was to determine if costs claimed by the American Institutes
for Research for Contract Number (CN) 600-97-32018 were allowable, allocable, and
reasonable in accordance with applicable Federal regulations and the terms of the
contract.

BACKGROUND

The Social Security Administration’s (SSA) Office of Acquisition and Grants (OAG)
requested an audit of costs incurred by American Institutes for Research
(CN 600-97-32018) for Integration of Disability Methodology Research for the Social
Security Administration. The contracted service period was from September 29, 1997,
through December 31, 1999. The costs claimed under CN 600-97-32018 are defined in
terms of the contract and the Office of Management and Budget (OMB) Circular A-122.
The circular provides criteria to establish allowability, allocability, and reasonableness of
costs claimed by nonprofit entities for Federal cost reimbursement contracts. 1

We limited our audit to the review of costs incurred by American Institutes for Research
for CN 600-97-32018. We did not assess, and do not express an opinion of the overall
acceptability of American Institutes for Research’s internal controls or accounting
systems. We performed our fieldwork at American Institutes for Research located in
Washington, DC and it’s subcontractors Westat, Inc. in Rockville, Maryland and
Washington University, located in St. Louis, Missouri. We also performed work in the
OAG at SSA Headquarters in Baltimore, Maryland, from January 2000 through
May 2000.

RESULTS OF REVIEW

The American Institutes for Research claimed a total of $5,999,587 for

CN 600-97-32018. Except for $29,494 in costs questioned related to other direct and

indirect costs, we determined the claimed costs were allowable, allocable, and

reasonable in accordance with applicable Federal regulations and the terms of the

contract.



RECOMMENDATION

We recommend that SSA recover the questioned costs of $29,494 from American
Institutes for Research on CN 600-97-32018.

1
    OMB Circular A-122, Cost Principles for Nonprofit Organizations.
                        T A B L E O F C O N T E N T S


                                                                                                                Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 3

     SPECIFIC COSTS ARE QUESTIONABLE ...................................................... 3

     � Other Direct Costs ...................................................................................... 3
     � Indirect Costs.............................................................................................. 4


RECOMMENDATION............................................................................................. 5

APPENDICES
APPENDIX A - Criteria for Claimed Costs

APPENDIX B - Schedules and Explanatory Notes for Claimed and Recommended

             Costs on Contract Number 600-97-32018
APPENDIX C - OIG Contacts and Staff Acknowledgements
APPENDIX D - SSA Organizational Chart
                          I N T R O D U C T I O N


OBJECTIVE

The objective of this audit was to determine if costs claimed by the American Institutes
for Research for Contract Number (CN) 600-97-32018 were allowable, allocable, and
reasonable in accordance with applicable Federal regulations and the terms of the
contract.

BACKGROUND

The Social Security Administration’s (SSA) Office of Acquisition and Grants (OAG)
requested an audit of costs incurred by the American Institutes for Research under its
contract (CN 600-97-32018), for Integration of Disability Methodology Research for the
Social Security Administration. The contracted service period was from
September 9, 1997, through December 31, 1999.

The costs claimed under CN 600-97-32018 are defined in terms of the contract.
Additionally, Office of Management and Budget (OMB) Circular A-122 provides criteria
that establish allowability, allocability, and reasonableness of costs claimed by nonprofit
entities for Federal cost reimbursement contracts. (See Appendix A for a detailed
explanation of the circular’s criteria.)

SCOPE AND METHODOLOGY

We limited our audit to the review of costs incurred by American Institutes for Research
for CN 600-97-32018. We did not assess, and do not express an opinion of the overall
acceptability of American Institutes for Research’s internal controls or accounting
systems.

We reviewed, on a limited basis, the contractor’s internal controls. We had no prior
experience with the contractor and preliminarily assessed control risk as “high.”
Therefore, we expanded our substantive tests, which our audit reflects and provides a
reasonable basis for our conclusions. We also examined, on a test basis, evidence
supporting the amounts claimed; inspected disclosures in the data; reviewed records;
assessed the accounting principles used and significant estimates made by the
contractor; and evaluated the overall data and records presentation.

To evaluate claimed costs, we referenced OMB Circular A-122 and the terms and
conditions of the contract. Costs that did not meet the requirements of the circular and
contract were questioned for SSA’s use in determining the costs incurred as of
November 30, 1999 on the contract.


                                             1

We performed our fieldwork at American Institutes for Research located in
Washington, DC and it’s subcontractors Westat, Inc. in Rockville, Maryland and
Washington University, located in St. Louis, Missouri. We also performed work in the
OAG at SSA Headquarters in Baltimore, Maryland, from January 2000 through
May 2000. Our audit was conducted in accordance with generally accepted
government auditing standards.




                                          2

                     R E S U L T S O F R E V I E W


Except for the questioned costs discussed below, we determined the costs claimed by
American Institutes for Research on CN 600-97-32018 were allowable, allocable, and
reasonable in accordance with applicable Federal regulations and the terms of the
contract.

We question whether $29,494 of the costs claimed by American Institutes for Research
are allowable, allocable, and reasonable (See Table 1) 2

                          Table 1 – Schedule of Questioned Costs

                           Cost Item                                 Costs
            Questioned Costs:
                               Other Direct Costs                  $ 26,217
                                     Indirect Costs                    3,277

            Total Questioned Costs                                 $ 29,494



SPECIFC COSTS ARE QUESTIONABLE

We question $29,494 of the American Institutes for Research claimed costs because
the costs are not in accordance with the terms of the contract and/or applicable Federal
regulations. Details of the questioned costs are discussed below.

Other Direct Costs

We question $26,217 of the claimed other direct costs. These costs are questioned
under section B-55 (b) of OMB Circular A-122, “Cost Principles for Non-Profit
Organizations,”stating that costs may be charged on an actual, per diem basis, or a
combination of the two, provided the method used is consistent with those normally
allowed by the organization. And section B-14 further states that costs of amusement,
diversion, social activities, ceremonials, and costs relating thereto, such as meals,
lodging, rentals, transportation, and gratuities are unallowable. The costs are also
questioned under section A-3 (a) which states that costs be reasonable and generally
recognized as ordinary and necessary for the operation of the organization or the
performance of the award.
2
  The amounts in Table 1 and throughout this report are rounded to the dollar. Percentages are rounded
to the second decimal place. Any differences are due to rounding.


                                                  3

•	 We question $5,656 of the travel costs claimed by the American Institutes for
   Research per section B-53 (b) of OMB Circular A-122. This represents the
   difference of using the government per diem rate, which the company normally uses
   and costs that were billed and for personal lunches that were charged to this
   contract.

•	 We question $10,878 in Regis/Memberships/Tech per section B-14 of OMB Circular
   A-122. These costs are costs for personal lunches.

•	 We question $9,683 in Consultant costs per section A-3 (a) of OMB Circular A-122.
   This represents costs for a consultant that is an employee of one of the
   subcontractors.

Indirect Costs Due to Audit Adjustments

We question indirect costs of $3,277 pertaining to the questioned other direct costs of
$26,217.




                                            4

                  R E C O M M E N D A T I O N


RECOMMENDATION

We recommend that SSA recover the net questioned costs of $29,494 from American
Institutes for Research on CN 600-97-32018.




                                        5

APPENDICES

                                                                        APPENDIX A


     C R I T E R I A F O R C L A I M E D C O S T S


The Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations, dated August 29, 1997:

   •	 Section A-3 Reasonable
      In order to be reasonable the costs shall be recognized as ordinary and
      necessary for the performance of the award.

   •	 Section B-55(b) Travel Costs
      Costs may be charged on an actual, per diem basis, or a combination of the two,
      provided the method used is consistent with those normally allowed by the
      organization.

   •	 Section B-14 Entertainment Costs
      Costs of amusement, diversion, social activities, ceremonials, and costs relating
      thereto, such as meals, lodging, rentals, transportation, and gratuities are
      unallowable.
                                                                                 APPENDIX B


       Schedules and Explanatory Notes for

       Claimed and Recommended Costs on

          Contract Number 600-97-32018

We question $29,494 of the costs claimed by the American Institutes for Research on
Contract Number (CN) 600-97-32018. (See Table 1 – Schedule of Questioned Costs
on page 3 of the report.) This appendix provides the following details:

   •	 Table depicting claimed, recommended, and questioned costs by American
      Institutes for Research; and

   •	 Explanatory notes detailing the auditor’s conclusions; contractor’s basis of
      claimed costs; and auditor’s evaluation methodology used to determine the
      questioned and/or recommended costs.

      Costs Claimed by American Institutes for Research on CN 600-97-32018
      Cost Element                Claimed              Recommended           Questioned           Note
Direct Labor                          $1,238,132              $1,238,132                $0
Supplies/Eqpt/Repair                       5,435                   5,435                 0
Other Direct Costs                        17,671                  17,671                 0
Communications                             6,045                   6,045                 0
Travel & Per Diem                         38,487                  32,831             5,656    Note 1
Regis/Memberships/Tech                    13,061                   2,183            10,878    Note 2
Consultant/Outside                        95,182                  85,499             9,683    Note 3
Subcontracts                           2,044,796               2,044,796                 0
Total Other Direct Costs              $2,220,676              $2,194,460           $26,217
Fringe – Group 2                             518                     518                 0
Fringe – Group 1                         536,710                 536,710                 0
Overhead – WRC                           956,576                 956,576                 0
Overhead – JCFRC                          11,647                 11,6467                 0
Overhead – PRC                            12,808                  12,808                 0
G&A                                     $622,133                $618,856            $3,277    Note 4
Total Indirect Costs                  $2,140,392              $2,137,115            $3,277
Total Costs                           $5,599,200              $5,569,707           $29,494
Fee                                      447,936                 447,936                 0
Total plus fee                        $6,047,137              $6,017,643            29,494
Less Cost Over Ceiling                    44,028                  44,028                 0
Less Fee Over Ceiling                      3,522                   3,522                 0
Total Costs                           $5,999,587              $5,970,093           $29,494

The amounts are rounded to the dollar. Percentages are rounded to the second decimal place. Any
differences are due to rounding.

Explanatory Notes:


                                                B-1

1) Travel Costs

  a) Summary of Conclusions:

        The questioned travel costs of $5,656 represent costs that are over the

        government per diem rate and unallowable personal lunches. The contractor

        uses the government per diem rate to determine travel charges. The costs

        questioned are unallowable per section B-55 (b) and B-14 of OMB

        Circular A-122. The questioned amount represents the difference between

        using the government per diem rate, which the company normally uses and

        costs that were billed.



  b) Basis of Claimed Costs:

        Claimed travel costs of $38,487 represent actual expenditures for travel and
        technical conferences.

  c) Audit Evaluation:

        As stated above in “Summary of Conclusions,”our questioned travel costs of
        $5,656 are based on the contractor claiming costs that were not in
        accordance with OMB Circular A-122.

2) Regis/Membership/Technical Conference Costs

  a) Summary of Conclusions:

        We question $10,878 of the Regis/Membership/Technical Conference costs
        claimed by American Institutes for Research. The costs billed are
        unallowable per section B-14 of OMB Circular A-122.

  b) Basis of Claimed Cost:

        Claimed costs of $13,061 represent actual expenditures for technical
        conferences.

  c) Audit Evaluation:

        Based on our review, the technical conference costs are costs for lunches
        and dinners. Therefore, we question $10,878 of these costs in accordance
        with OMB Circular A-122, section B-14.


3) Consultant/Outside



                                        B-2

   a) Summary of Conclusions:

         We question $9,683 of the Consultant /Outside cost claimed. The question
         costs is for three vouchers from a direct employee of one of the
         subcontractors that is also working on this contract. This cost is unallowable
         per section A-3, of OMB Circular A-122.

   b)	 Basis of Claimed Costs:

         Claimed costs of $95,182 represent costs for Consultants.


   c) Audit Evaluation:

         As stated above in “Summary of Conclusions”, our questioned Consultant
         costs of $9,683 are based on the contractor claiming costs that are not in
         accordance with OMB Circular A-122, A-3

4) Indirect Costs

   a) Summary of Conclusions:

         Because we have questioned direct charges, we also question $3,277 of the
         related General & Administrative (G & A) costs claimed.

   b) Basis of Claimed Costs:

         The contractor claimed G & A costs that are equivalent to 12.5 percent of
         direct, fringe and overhead costs.

   c) Audit Evaluation:

         Total costs input is the allocation base to which the G & A rate is applied. To
         derive questioned G & A cost, we applied the claimed rate of 12.5 percent to
         our questioned costs.




                                          B-3

                                                                          APPENDIX C


                OIG CONTACTS

         AND STAFF ACKNOWLEDGMENTS


OIG Contacts

Frederick C. Nordhoff, Director, Financial Management and Performance Monitoring
Audits, (410) 966-6676

Carl Markowitz, Audit Manager, (410) 965-9742

Acknowledgments

In addition to those named above:

   Suzanne Valett, Senior Auditor

   Cheryl Robinson, Writer-Editor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-9558. Refer to Common Identification Number
A-15-00-20034
                                      APPENDIX D


S S A O R G A N I Z A T I O N A L C H A R T

